OFFICE OF           Report of Evaluation 

INSPECTOR GENERAL
                              OIG 2009 Evaluation of the
                             Farm Credit Administration’s
                                     Compliance with the
                             Federal Information Security
                                        Management Act

                                     November 18, 2009


                            E-09-01

                          Tammy Rapp
                        Auditor-in-Charge




                    FARM CREDIT ADMINISTRATION
Memorandum		                                                         Farm Credit Administration
                                                                     1501 Farm Credit Drive
                                                                     McLean, Virginia 22102-5090




November 18, 2009


The Honorable Leland A. Strom
Chairman of the Board
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Strom:

The Office of the Inspector General completed the 2009 independent evaluation of the Farm Credit
Administration’s compliance with the Federal Information Security Management Act (FISMA). The
objectives of this evaluation were to perform an independent assessment of FCA’s information
security program and assess FCA’s compliance with FISMA.

The results of our evaluation revealed that FCA has an effective information security program that
complies with FISMA and did not identify any significant deficiencies in the Agency’s information
security program.

We appreciate the courtesies and professionalism extended to the evaluation staff. If you have any
questions about this evaluation, I would be pleased to meet with you at your convenience.

Respectfully,




Carl A. Clinefelter
	
Inspector General
	
                                             TABLE OF CONTENTS



EXECUTIVE SUMMARY ..................................................................................1


INTRODUCTION AND BACKGROUND ..........................................................2


OBJECTIVES ....................................................................................................2


SCOPE AND METHODOLOGY .......................................................................2


CONCLUSIONS ................................................................................................4


        Information Security Program Management ........................................................... 4

        Risk Assessment ........................................................................................................ 5

        Planning ....................................................................................................................... 5

        System and Services Acquisition............................................................................. 5

        Certification, Accreditation, and Security Assessments ....................................... 6

        Personnel Security...................................................................................................... 7

        Physical and Environmental Protection .................................................................. 7

        Contingency Planning................................................................................................ 8

        Configuration Management ....................................................................................... 8

        Maintenance ................................................................................................................ 9

        System and Information Integrity ............................................................................. 9

        Media Protection ....................................................................................................... 10

        Incident Response .................................................................................................... 10

        Awareness and Training .......................................................................................... 10

        Identification and Authentication............................................................................ 11

        Access Control.......................................................................................................... 11

        Audit and Accountability.......................................................................................... 11

        System and Communications Protection.............................................................. 12

        Privacy Related ......................................................................................................... 12


APPENDIX A: INSPECTOR GENERAL SECTION REPORT FOR OMB

APPENDIX B: ACRONYMS AND ABBREVIATIONS
 EXECUTIVE SUMMARY

 The Federal Information Security Management Act (FISMA) requires the Chief Information Officer
 (CIO) and Office of Inspector General (OIG) to conduct annual assessments of an agency’s
 information security program and report the results to the Office of Management & Budget (OMB).
 This report contains the objectives, scope, methodology, and results of the OIG’s evaluation of the
 Farm Credit Administration’s (FCA or Agency) information security program. In addition,
 Appendix A contains the Inspector General (IG) Section Report as required by OMB’s FY 2009
 Reporting Instructions for the FISMA in OMB Memorandum M-09-29.

 The results of our evaluation revealed that FCA has an effective information security program that
 continues to mature. FCA adopted a risk based approach to information security and implements
 new controls where weaknesses are identified that strengthen security while not becoming too
 burdensome. Some of the elements of the Agency’s information security program include
 categorizing systems based on risk, developing security plans, implementing risk based security
 controls, applying a common security configuration, performing continuous monitoring, conducting
 a comprehensive security awareness program, testing the continuity of operations plan, and
 implementing an incident response program.

 FCA has an engaged CIO with an information technology (IT) team that is experienced and well
 trained. The CIO and IT team are proactive in their approach to information security. The IT team
 was very responsive to minor suggestions made for improvement during the FISMA evaluation, and
 in many cases, the IT staff made immediate changes to strengthen the information security
 program where possible. The IT Security Specialist continues to work on her individual
 development plan to become a Certified Information Systems Security Professional (CISSP).

 Our evaluation did not reveal any significant deficiencies in FCA’s information security program and
 this report does not contain any recommendations or agreed-upon actions.




FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                    1
 INTRODUCTION AND BACKGROUND

 The President signed into law the E-Government Act (Public Law 107-347), which includes Title III,
 Information Security, on December 17, 2002. FISMA permanently reauthorized the Government
 Information Security Reform Act of 2000 which expired in November 2002. The purpose of FISMA
 was to strengthen the security of the Federal government’s information systems and develop
 minimum standards for agency systems.

 Section 3545 of FISMA requires OIGs to perform an annual independent evaluation of their
 agency’s information security program to determine the effectiveness of the security program and
 practices. “Each evaluation under this section shall include—
        (A) testing of the effectiveness of information security policies, procedures, and practices of a
        representative subset of the agency’s information systems;
        (B) an assessment (made on the basis of the results of the testing) of compliance with—
                 (i) the requirements of this subchapter; and
                 (ii) related information security policies, procedures, standards, and guidelines;”

 OMB issued Memorandum M-09-29, FY 2009 Reporting Instructions for the FISMA and Agency
 Privacy Management, on August 20, 2009. This memorandum provides instructions for complying
 with FISMA’s annual reporting requirements and reporting on the agency’s privacy management
 program. The most significant change to this year’s reporting instruction from OMB was the
 method of data collection from agencies. OMB developed an automated reporting tool,
 CyberScope, which will be used by agencies in lieu of spreadsheet templates used in prior years.


 OBJECTIVES

 The objectives of this evaluation were to perform an independent assessment of FCA’s information
 security program and assess FCA’s compliance with FISMA.


 SCOPE AND METHODOLOGY

 The scope of this evaluation covered FCA’s Agency-owned and contractor operated information
 systems of record as of September 30, 2009. FCA is a single program Agency with six mission
 critical systems: Infrastructure, Lotus Notes (Notes), Consolidated Reporting System (CRS),
 Personnel/Payroll System (PPS), Agency Financial Management System (AFMS), and electronic
 Official Personnel Folder system (eOPF).

 Our evaluation included determination of the critical elements that are essential for establishing
 compliance with FISMA. Key criteria used to evaluate FCA’s information security program and


FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                       2
    compliance with FISMA included OMB guidance, National Institute of Standards and Technology
    (NIST) Special Publications (SP), and Federal Information Processing Standards Publications (FIPS).
    In performing this evaluation, we performed the following steps:

      •	 Identified and reviewed Agency policies and procedures related to information security;
      •	 Examined documentation relating to the Agency’s information security program and

         compared to NIST standards and FCA policy;

      •	 Conducted interviews with the CIO and other key personnel;
      •	 Observed security related activities performed by Agency personnel; and
      •	 Performed tests for a subset of controls.

    The evaluation focused on the actual performance of the Agency’s security program and practices
    and not on how the Agency measures its performance in its own evaluations. We relied on the
    guidelines contained within NIST SP 800-53A for evaluating information systems. Our assessment
    procedures included identifying the security controls for each system and determining whether a
    subset of those controls were implemented correctly, operating as intended, and producing the
    desired outcome with respect to meeting the security requirements of the system. Since we
    completed an audit of the Agency’s certification and accreditation (C&A) process in July 2009, we
    incorporated the results from that audit with this evaluation and built on our understanding from
    past FISMA evaluations. This evaluation represents the status of the information security program
    as of September 30, 2009, and did not include a test of all information security controls.

    NIST SP 800-53A organizes security control assessment procedures into three “classes” of controls:
    management, operational, and technical. It further divides the three classes of controls into
    eighteen security control families. In addition to these security control families, we performed a
    limited evaluation of privacy issues in order to respond to OMB’s reporting requirements for IGs.
    The conclusion section of this report summarizes our observations for each of these control
    families.

    The evaluation’s observations and results were presented to key IT personnel throughout the
    evaluation. On November 10, 2009, the CIO and OIG shared and discussed drafts of their
    respective FISMA section reports. On November 13, 2009, the OIG held an exit conference with the
    CIO and other key IT personnel to formally communicate the observations from this evaluation.

    This evaluation was performed at the FCA headquarters in McLean, Virginia, from August 2009
    through November 2009, in accordance with the former President’s Council on Integrity and
    Efficiency’s1 Quality Standards for Inspections. This report is intended for use by FCA management
    and OMB.



1
 The PCIE was abolished by the Inspector General Reform Act of 2008 and replaced by the Council of the Inspectors General on Integrity and Efficiency
(CIGIE). CIGIE is now in the process of reviewing the Quality Standards for Inspections for any needed changes and will reissue them in the future under
CIGIE’s authorship.

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                                                                      3
 CONCLUSIONS

 Procedures performed during our evaluation did not reveal any significant deficiencies in FCA’s
 information security program. Below you will find a summary of our observations from each of the
 security control families.

 Information Security Program Management

       FCA is committed to complying with the requirements of FISMA and improving its ability to
       protect personally identifiable information (PII). FCA’s overall security program is integrated
       with the enterprise architecture (EA), capital planning and investment control process, and
       the life cycle management of each system. FCA’s EA interacts with the capital planning and
       investment control process to ensure that IT investments support core business functions.
       FCA’s EA also identifies security standards required for authentication and non-repudiation,
       audit trail creation and analysis, access controls, virus protection, and intrusion prevention
       and detection. FCA reviews and updates its information system inventory during the annual
       information resources management (IRM) planning and FISMA reporting cycles.

       FCA developed policies that provide the foundation for an organization-wide
       information security program. FCA’s security program is based on FISMA, OMB A-130,
       OMB security related memoranda, and NIST Special Publications and FIPS Publications.
       FCA is currently in the process of updating significant security policies and employee
       security certifications with its release of a new information system logon banner.

       The CIO and the IT Security Specialist provide information security policy and assurance.
       Since FCA is a small agency, the CIO is responsible for many functions including the role of
       Senior Information Security Officer (or Chief Information Security Officer) and Senior Agency
       Official for Privacy. For the past few years, FCA has been transitioning the security related
       functions from the CIO to the IT Security Specialist, and the IT Security Specialist has been
       working towards obtaining the CISSP certification.

       FCA has a process for developing plans of action and milestones (POA&M) for significant
       information security weaknesses and tracking their implementation. FCA’s security
       philosophy is to correct identified deficiencies immediately, resulting in limited POA&M
       items. In addition, FCA uses its annual Management Control Plan to develop, monitor, and
       report on the performance and accountability of primary internal controls, including IT
       security. The results of the internal control reviews related to IT security indicated that most
       internal controls were validated as effective and operating as intended.




FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                      4
 Risk Assessment

       FCA performed periodic assessments of risk and potential harm that could result from
       unauthorized access, use, disclosure, disruption, modification, or destruction of
       information and information systems that support the operations of the Agency. IT
       security and information protection needs were evaluated during the internal control
       reviews, capital investment planning and control process, and regular updates of the
       enterprise architecture, security plans, and other related security and IT policies. The
       security policy delegated responsibility to the CIO for periodically reviewing information
       systems to ascertain that security is proportionate to the risk.

       Risk to information systems was continually assessed by evaluating security alerts,
       monitoring systems, and providing security related training. FCA maintained a
       vulnerability database, ran automated vulnerability detection tools, and reviewed the
       resulting lists of potential vulnerabilities. The security plan contained some elements of
       a risk assessment report as outlined in SP 800-30; however, it could be improved by
       describing threats and vulnerabilities, measuring the risk, and ensuring appropriate
       controls are identified and implemented.

       The Agency added a new system during 2009. This system was categorized and the
       supporting rationale was documented in accordance with guidance from NIST.

 Planning

       FCA developed and implemented security plans that described the security controls for the
       general support system and major applications. Guidance from NIST was used to develop
       security plans. All security plans were updated during the past year, and a security plan was
       developed for a new system. FCA continues to improve its security plans and is in the
       process of revising its infrastructure security plan to identify the review cycle for each control
       as part of its continuous monitoring program. In addition, FCA plans to strengthen security
       plans over the next year by expanding the descriptions of controls implemented and
       ensuring consistency among the security plans. The IT Infrastructure security plan was
       updated on a regular basis throughout the year and not limited to the annual review cycle.

 System and Services Acquisition

       FCA implemented the following system and service acquisition controls. Specifically, the
       Agency has:
          •	 Integrated security in the enterprise architecture, capital planning and investment
              control, and budgeting processes;
          •	 Allocated sufficient resources to monitor and protect organizational information
              systems;


FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                       5
           •	 Employed system development life cycle processes that incorporate information
              security considerations;
           •	 Performed due diligence reviews and monitored security controls for outsourced
              systems; and
           •	 Employed software usage and installation restrictions.

       FCA ensured that its financial systems provider employed adequate security measures to
       protect information, applications, and services by performing site visits to review security
       documentation, performing data validations, and periodically reviewing user accounts and
       privileges. FCA strengthened its oversight of its payroll and personnel system provider by
       reviewing independent security assessments performed on the system and reviewing
       account lists to ensure access to Agency data was limited to authorized users. FCA plans to
       further strengthen oversight in 2010 by adding more specific controls to its security plans
       and performing site visits to review security related documentation for two outsourced
       systems.

 Certification, Accreditation, and Security Assessments

       FCA authorized information systems and connections, periodically assessed information
       security controls to determine their effectiveness, monitored security controls on an
       ongoing basis to ensure the continued effectiveness of the controls, and developed
       plans of corrective action to correct deficiencies and vulnerabilities.

       The Agency’s policy states the general support system and major applications will
       operate with proper accreditation and be recertified every 3 years or when a major
       system change occurs. All of FCA’s systems have been certified and accredited, and all
       connections to FCA systems have been documented and authorized.

       Recently, the OIG performed an audit of the FCA’s C&A process used on its IT
       infrastructure during 2008. The results of our audit revealed that FCA’s C&A process
       was well planned and managed, and complied with the requirements and guidance
       provided by the FISMA, OMB, and NIST. Our observations of the C&A process followed
       by the Agency disclosed the process contained the following elements:

           •	 Proper and adequate planning;
           •	 Security control testing executed in accordance with NIST guidance;
           •	 No material gaps identified in security control testing;
           •	 Appropriate reuse of previous assessments and evaluations;
           •	 Adequate certification testing documentation;
           •	 Accreditation decision based on balancing mission and operations with security;
              and
           •	 Effective continuous monitoring program.

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                    6
       Periodic security assessments of the Agency’s information systems are performed using
       a combination of continuous monitoring, self-assessments, and independent
       contractors. Issues identified during security assessments were resolved in a timely
       manner.

       Continuous monitoring of security controls includes network security testing,
       configuration management, security event monitoring, security alert and vulnerability
       analysis, patch management, and intrusion detection monitoring. FCA has a process for
       developing plans of corrective action for significant information security weaknesses
       and tracking their implementation.

 Personnel Security

       The Agency’s personnel security program includes classifying positions for sensitivity
       level and obtaining appropriate clearances for employees and contractors. FCA’s Office
       of Management Services (OMS) identified personnel security as a control element in its
       Management Control Plan and tested related controls in 2009 to ensure appropriate
       records for background verifications and security clearances were established for FCA’s
       personnel security related actions. When an employee terminates from the Agency, a
       separation checklist is completed.

       Before providing system access, new employees and contractors are required to certify
       their understanding of FCA security policies and procedures. However, this policy does
       not apply to employees and contractors hired before 2000, and security certifications
       are not periodically updated even though security policies and procedures may have
       changed. FCA is in the process of revising its logon banner and significant information
       security policies. Once the policies are approved, all employees and contractors will be
       required to certify their understanding of applicable security policies.

       In response to an issue identified during the 2008 FISMA evaluation, OMS improved its
       process for tracking contractors. The Personnel Security Officer and IT Security
       Specialist are notified prior to hiring a contractor so that adequate documentation and
       clearances are completed before providing the contractor with access to an information
       system.

 Physical and Environmental Protection

       FCA implemented several physical and environmental controls to limit physical access to
       the building and its information systems, monitor visitor access, and prevent physical
       damage to information system components. Physical and environmental protection
       was provided at FCA through the Farm Credit System Building Association (FCSBA). The
       FCSBA provides 24-hour guard protection, visitor access controls, and card readers for

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                               7
       entry into the building and sensitive areas. OMS performed quarterly reviews of
       physical access control lists to ensure access to the building and sensitive areas were
       limited to authorized individuals. Fire protection is provided by a halon system in the
       computer facility and sprinkler systems in the remainder of the building. The FCSBA
       performs regular maintenance on the heating and air conditioning systems and
       maintains an emergency backup generator. In addition, the computer facility has an
       uninterruptible power supply and redundant heating, ventilation, and air conditioning
       units. A specialized cleaning crew is used to maintain the environment in the computer
       facility.

 Contingency Planning

       FCA committed resources to ensure the continuity of operations of essential functions in
       emergency situations. A business continuity plan and disaster recovery plan were developed
       and periodically updated to support the restoration of operations and systems after a
       disruption or failure. In addition, FCA took precautionary measures with respect to the H1N1
       flu including additional building cleaning, disseminating current information regarding the
       flu, providing seasonal flu vaccines to employees, and coordinating H1N1 vaccines for
       employees.

       The Agency has an alternative IT processing site that was successfully activated during a
       government wide test. Employees from several offices participated in the test ensuring the
       availability of critical systems and alternative communication systems. Several managers and
       senior executives participated, including the Chairman of the Agency. The business
       continuity exercise generated productive discussions between functional areas regarding the
       importance of continuity planning, succession planning, communication, and prioritization of
       services. The exercise identified areas that need further testing or refinement, but no
       significant weaknesses were identified.

       The Agency has an IT backup strategy that includes daily and weekly backups of data and
       systems. A disaster recovery kit is also maintained offsite that contains critical software
       needed to recreate systems. FCA has two off-site storage facilities for backups.

 Configuration Management

       FCA maintains a baseline configuration and enforces the security configuration settings for its
       information systems. Configuration management policies and procedures were developed
       and periodically updated. A standard configuration was maintained for laptops and servers.
       Any deviations to the standard configuration must be approved by the CIO. Both policy and
       technical settings prohibit most users from changing the configuration. An inventory of
       hardware and software components was maintained and updated regularly. FCA performed
       vulnerability assessments to confirm functions, ports, protocols, and services were limited to
       essential functions and services necessary to support operations.

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                     8
       To improve security of Federal information systems, OMB required agencies to adopt
       commonly accepted security configurations. In June 2008, NIST released the first major
       version of the Federal Desktop Core Configuration (FDCC)2, which provided standard security
       settings for Windows XP and Vista. FCA successfully deployed some of the FDCC settings and
       is in the process of testing and implementing additional settings. Where deviations from the
       FDCC are necessary, justifications are developed and approved by the CIO. Because of the
       intense analysis and testing required to deploy over 400 FDCC settings, the Agency
       developed a POA&M.

 Maintenance

       FCA has an information system maintenance program with established controls over the
       tools, techniques, and personnel used to conduct information system maintenance. Most
       maintenance is performed by the Technology Team’s (TT) staff on weekends to minimize
       disruption of IT services. When contractors are used to perform maintenance, they are
       closely supervised by TT personnel. Remote contractor access for diagnostic purposes is
       tightly controlled by IT staff. FCA maintains a current list of various maintenance and support
       agreements.

 System and Information Integrity

       FCA identifies and corrects information system flaws, monitors information system security
       alerts, maintains current patches on information systems, and provides protection from
       malicious code within information systems. Key IT personnel receive risk alerts from vendors
       and security organizations identifying information system flaws. These alerts are analyzed to
       determine the potential impact on Agency systems, tracked in a database, and remediated
       where applicable. In addition, key IT personnel participate in various list serves and security
       organizations that share information regarding new threats, vulnerabilities, and security
       practices. Anti-virus and anti-spam protection are installed on the Agency’s information
       systems and updated automatically. E-mail messages and data files are scanned
       automatically without user intervention. FCA policy restricts employees from using USB
       thumb drives not issued by FCA on Agency laptops. If a thumb drive is received from other
       sources and needed for an FCA business purpose, it must be scanned by the Helpline to
       ensure they do not contain malicious software.

       IT personnel continuously monitor audit logs, firewall logs, and security alerts. Controls
       implemented to ensure data integrity includes data entry validation, transaction log and
       error log review.



       2
           The FDCC was developed by the NIST, the Department of Defense, and the Department of Homeland Security.

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                                             9
 Media Protection

       FCA issued policies and procedures and implemented several controls designed to protect
       sensitive information, including PII, on information system media. Sensitive information
       maintained on a local machine is protected by an encrypted hard drive. Employees that
       need to share sensitive data are provided with an encrypted USB drive and a local printer.
       The encrypted USB drives contain a feature that formats the data after several failed
       password attempts. Sensitive information in paper format is maintained in locked cabinets.
       The ability to create a CD or DVD has been disabled on the standard configuration, and the
       TT monitors USB ports for unauthorized devices.

       FCA has documented procedures for protecting backup media. Access to backup media is
       limited to authorized personnel, stored in locked facilities, and transported in locked
       containers. Before disposal, backup media is sanitized preventing retrieval of the data.

 Incident Response

       FCA established an incident handling program that includes detection, reporting,
       analysis, containment, recovery, and user response activities. FCA has distributed
       several incident response policies and procedures over the past few years. In addition,
       staff was educated on the importance of reporting incidents to the Agency’s Helpline of
       any IT equipment, PII, or sensitive data suspected to be missing, lost, or stolen. OMS
       maintains a 24 hour Helpline for reporting security incidents and provided employees
       with wallet cards with the contact information. A log is maintained of security incidents,
       and appropriate officials, including the OIG, are notified depending on the nature of the
       incident.

       During the past year, OMS enhanced its information security program by identifying
       areas of improvement and implementing lessons learned from actual incidents. For
       example, there were several instances where employees failed to notify the Helpline
       within one hour of a security incident. As a result, OMS sent notices to all staff defining
       a security incident and reminding them of the importance of reporting any incidents
       immediately to the Helpline. Once incidents were reported to the Helpline, actions
       taken by OMS were timely and appropriate. OMS also implemented new procedures
       designed to mitigate potential infection from privileged network accounts in response
       to a Trojan that was identified on an Agency issued laptop.

 Awareness and Training

       FCA ensures users are aware of security risks associated with their activities by providing
       an ongoing IT security awareness program which includes formal training and e-mail
       alerts. New employees and contractors are provided with security awareness and
       privacy training before they are granted system access. In 2009, the IT Security

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                  10
       Specialist performed annual security awareness training for employees and contractors
       using small group sessions. The security awareness training focused on how to minimize
       risks from malicious software and the importance of reporting incidents immediately.
       Agency staff were periodically sent e-mails and news alerts that contain security tips
       and notices of new threats.

       All employees and contractors with login privileges were provided with security awareness
       training during the past year. In addition, all IT specialists with significant information
       security responsibilities were provided with specialized training related to technology
       implemented at FCA during the past year.

 Identification and Authentication

       FCA identifies and authenticates information system users, processes, and devices before
       allowing access to information systems. Policies and procedures have been developed that
       support identification and authentication controls. In addition, OMS performed a risk
       assessment for e-authentication. Information system users are uniquely identified and
       authenticated on Agency information systems, and unauthorized devices are prevented from
       connecting to the Agency’s network. Passwords are not displayed when entered and
       protected by encryption.

 Access Control

       FCA limits and monitors access to information systems to protect against unauthorized
       modification, loss, and disclosure. Policies and procedures for requesting, issuing, and
       closing information system accounts are documented. Information system accounts are
       created, managed, monitored, and disabled by authorized personnel. OMS controls access
       to information system data through groups and permissions assigned to files, folders, and
       databases. Users of FCA information systems are provided with the least amount of system
       access needed to perform their responsibilities, and sensitive database access is granted only
       after authorization from an employee’s supervisor and the system sponsor. During 2009, TT
       strengthened security for privileged network access. Periodically, information system
       sponsors review accounts to ensure access permissions provided to information system
       users is current and appropriate. OMS uses a combination of technical configuration settings
       and other automated controls to prevent, detect, or notify authorized individuals of
       suspicious account activity. Remote access to FCA’s information systems is controlled
       through a virtual private network (VPN). FCA intends to expand the use of HSPD12 cards for
       logical access to computers and networks with the next generation of laptops.

 Audit and Accountability

       FCA creates, protects, and retains audit records for its information systems. Policies and
       procedures were established to identify events which FCA determined as significant and

FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                    11
       relevant to the security of the information system. Access to audit logs is restricted to
       authorized individuals. Administrators are automatically notified by e-mail of suspicious
       events and audit processing failures, and the CIO is notified of significant events. Unusual
       activity is investigated and necessary action is taken by appropriate personnel. Audit events
       are recorded in an audit log which is periodically archived.

 System and Communications Protection

       FCA has established controls that separate user functionality from information system
       management functionality, protect against external attacks, and establish trusted
       communication paths between the user and the system. System communications at key
       boundaries and interfaces are monitored and controlled. Internal networks are protected at
       all connection points to the internet. A VPN provides for secure encrypted transmission of
       data outside of the Agency’s network. Encryption is used to protect sensitive data and PII.

 Privacy Related

       Our review of privacy matters was limited to obtaining sufficient information to respond to
       the privacy related questions in OMB’s template for IGs. FCA does not have any systems that
       collect PII regarding members of the public, and therefore has not conducted any privacy
       impact assessments. In response to various OMB memorandums, the Agency reviewed the
       use of social security numbers and the collection of PII and other sensitive information
       throughout the Agency. FCA reduced the collection of sensitive information to the minimum
       necessary to perform Agency functions. The Agency also implemented safeguards such as
       encryption and employee training to protect sensitive data. In 2009, the Agency developed
       two official confidentiality notices that may be attached to e-mail messages related to
       sensitive supervision or examination activities and other types of business communications.




FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL                                    12
APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB




    Inspector General                                         2009
    Section Report                                           Annual FISMA
                                                             Annual FISMA
                                                                Report




                   Farm Credit Administration




                                     For Official Use Only
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing
1. Identify the number of Agency and contractor systems by component and FIPS 199 impact level (low, moderate, high) reviewed.



2. For the Total Number of Reviewed Systems Identified by Component/Bureau and FIPS System Impact Level in the table for
Question 1, identify the number and percentage of systems which have: a current certification and accreditation, security controls
tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                          c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems            Number of systems
                                                                                    Systems(Agency and         systems certified       for which security               for which
                                                                                    Contractor systems)         and accredited         controls have been           contingency plans
                                                                                                                                       tested and reviewed          have been tested in
                                                                                                                                         in the past year            accordance with
                                                                                                                                                                          policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
FCA                High                   0           0           0             0          0              0                        0                            0                         0
                   Moderate               3           3           3             3          6              6                        6                            6                         6
                   Low                    0           0           0             0          0              0                        0                            0                         0
                   Not Categorized        0           0           0             0          0              0                        0                            0                         0
                   Sub Total              3           3           3             3          6              6                        6                            6                         6
Agency Totals      High                   0           0           0             0          0              0                        0                            0                         0
                   Moderate               3           3           3             3          6              6                        6                            6                         6
                   Low                    0           0           0             0          0              0                        0                            0                         0
                   Not Categorized        0           0           0             0          0              0                        0                            0                         0
                   Total Systems          3           3           3             3          6              6                        6                            6                         6




2009 Annual FISMA Report - Farm Credit Administration                   For Official Use Only                                                               IG Report - Page 1 of 12
 APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory
The Agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the Agency or other
organization on behalf of the Agency meet the requirements of FISMA, OMB policy and NIST guidelines, national security policy, and
Agency policy.

Agencies are responsible for ensuring the security of information systems used by a contractor of their Agency or other organization on
behalf of their Agency; therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another
Federal Agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
 3a. Does the Agency have policies for oversight of contractors?
     No
              Comments:      Although FCA does not have documented policies addressing oversight of contractor systems, FCA performed due
                             diligence of its contractor systems. FCA reviewed independent security assessments, obtained signed interconnection
                             agreements, and performed site visits of its financial systems provider to review security documentation.

                             In addition, FCA developed security plans for each contractor system, performed data validations, and periodically
                             reviewed user accounts and privileges.

 3b. Does the Agency have a materially correct inventory of major information systems (including national security systems)
 operated by or under the control of such Agency?
     Yes

 3c. Does the Agency maintain an inventory of interfaces between the Agency systems and all other systems, such as those not
 operated by or under the control of the Agency?
     Yes
 3d. Does the Agency require agreements for interfaces between systems it owns or operates and other systems not operated by
 or under the control of the Agency?
     Yes
              Comments:      The Agency has agreements for all system interconnections.




2009 Annual FISMA Report - Farm Credit Administration           For Official Use Only                                           IG Report - Page 2 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
 3e. The Agency inventory is maintained and updated at least annually.
     Yes
 3f. The IG generally agrees with the CIO on the number of Agency-owned systems.
     Yes

 3g. The IG generally agrees with the CIO on the number of information systems used or operated by a contractor of the Agency or
 other organization on behalf of the Agency.
     Yes




Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the Agency has developed, implemented, and is managing an Agency-wide plan of action and milestones (POA&M)
process, providing explanatory detail in the area provided.

4a. Has the Agency developed and documented an adequate policy that establishes a POA&M process for reporting IT security
deficiencies and tracking the status of remediation efforts?

     Yes
     4a(1). Has the Agency fully implemented the policy?

              Yes
4b. Is the Agency currently managing and operating a POA&M process?
     Yes
 4c. Is the Agency's POA&M process an Agency-wide process, incorporating all known IT security weakness, including
 IG/external audit findings associated with information systems used or operated by the Agency or by a contractor of the Agency or
 other organization on behalf of the Agency?
     Yes




2009 Annual FISMA Report - Farm Credit Administration         For Official Use Only                                       IG Report - Page 3 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
 4d. Does the POA&M process prioritize IT security weakness to help ensure significant IT security weaknesses are corrected in
 a timely manner and receive appropriate resources?
     Yes

 4e. When an IT security weakness is identified, do program officials (including CIOs, if they own or operate a system) develop,
 implement, and manage POA&Ms for their system(s)?
      Yes

 4f. For Systems Reviewed:
     4f(1). Are deficiencies tracked and remediated in a timely manner?
            Yes
      4f(2). Are the remediation plans effective for correcting the security weakness?

            Yes

      4f(3). Are the estimated dates for remediation reasonable and adhered to?
            Yes
 4g. Do Program officials and contractors report their progress on security weakness remediation to the CIO on a regular basis (at
 least quarterly)?
     Yes

 4h. Does the Agency CIO centrally track, maintain, and independently review/validate POA&M activities on at least a quarterly
 basis?
     Yes

Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the Agency's certification and accreditation (C&A) process, including adherence to existing policy,
guidance, and standards. Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation
of Federal Information Systems" for C&A work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security
Categorization of Federal Information and Information Systems," to determine a system impact level, as well as associated NIST
documents used as guidance for completing risk assessments and security plans.

 5a. Has the Agency developed and documented an adequate policy for establishing a C&A process that follows the NIST
 framework?
2009 Annual FISMA Report - Farm Credit Administration          For Official Use Only                                        IG Report - Page 4 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     Yes
 5b. Is the Agency currently managing and operating a C&A process in compliance with its policies?
      Yes
 5c. For Systems reviewed, does the C&A process adequately provide:
      5c(1). Appropriate risk categories
             Yes
      5c(2). Adequate risk assessments
             Yes
      5c(3). Selection of appropriate controls
             Yes
      5c(4). Adequate testing of controls
             Yes
      5c(5). Regular monitoring of system risks and the adequacy of controls
             Yes
 5d. For systems reviewed, is the Authorizing Official presented with complete and reliable C&A information to facilitate an
 informed system Authorization to Operate decision based on risks and controls implemented?
      Yes

Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process
Provide a qualitative assessment of the Agency's process, as discussed in the SAOP section, for protecting privacy-related information,
including adherence to existing policy, guidance and standards. Provide explanatory information in the area provided.

6a. Has the Agency developed and documented adequate policies that comply with OMB guidance in M-07-16, M-06-15, and
M-06-16 for safeguarding privacy-related information?
     Yes
6b. Is the Agency currently managing and operating a privacy program with appropriate controls in compliance with its policies?
     Yes
6c. Has the Agency developed and documented an adequate policy for PIAs?
     Yes



2009 Annual FISMA Report - Farm Credit Administration          For Official Use Only                                        IG Report - Page 5 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
6d. Has the Agency fully implemented the policy and is the Agency currently managing and operating a process for performing
adequate PIAs?
     Yes
              Comments:     FCA does not have any systems that collect PII regarding members of the public, and therefore has not conducted any
                            privacy impact assessments.

Question 7: Configuration Management

 7a. Is there an Agency wide security configuration policy?
     Yes

7a(1). For each OS/platform/system for which your Agency has a configuration policy, please indicate the status of implementation
for that policy.
     OS/Platform/System                                    Implementation Status


                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                     Tool Category




                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                     Tool Category




                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                     Tool Category




2009 Annual FISMA Report - Farm Credit Administration          For Official Use Only                                           IG Report - Page 6 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     OS/Platform/System                                 Implementation Status


                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




2009 Annual FISMA Report - Farm Credit Administration      For Official Use Only                                      IG Report - Page 7 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     OS/Platform/System                                 Implementation Status


                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




2009 Annual FISMA Report - Farm Credit Administration      For Official Use Only                                      IG Report - Page 8 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     OS/Platform/System                                 Implementation Status


                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                 Tool Category




2009 Annual FISMA Report - Farm Credit Administration      For Official Use Only                                      IG Report - Page 9 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     OS/Platform/System                                    Implementation Status


                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                    Tool Category




                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                    Tool Category




                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                     Tool/Technique Name                    Tool Category



     Comments:     Although the OIG did not perform independent verification of the CIO's response on each of the OS/platform/systems listed, we
                   observed results from a recent      scan performed by IT personnel that did not reveal any high or medium vulnerabilities.

 7b. Indicate the status of the implementation of Federal Desktop Core Configuration (FDCC) at your Agency:
     7b(1). Agency has documented deviations from FDCC standard configuration.

             No

                   Comments:      FCA successfully deployed approximately 25% of the FDCC settings and in the process of testing additional
                                  settings. Where deviations from the FDCC are necessary, justifications are developed and approved by the CIO.
                                  The Agency developed a plan of action and milestones for the FDCC.

     7b(2). New Federal Acquisition Regulation 2008-004 language, which modified "Part 39-Acquisition of Information Technology,"
     is included in all contracts related to common security settings.
             No
                   Comments:     Although FCA is not required to follow the FAR, new acquisitions must comply with standard FCA security
                                 configurations.

2009 Annual FISMA Report - Farm Credit Administration          For Official Use Only                                         IG Report - Page 10 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB

Question 8: Incident Reporting

 8a. How often does the Agency comply with documented policies and procedures for identifying and reporting incidents internally?

     60 % to 70 %
             Comments:       There were several instances where employees failed to notify the Helpline within one hour of a security incident. Once
                             incidents were reported to the Helpline, actions taken were timely and appropriate.

 8b. How often does the Agency comply with documented policies and procedures for timely reporting of incidents to US-CERT?
     100 % to 100 %
             Comments:       Once the incident was reported internally to the Helpline, US-CERT was notified timely. Three incidents were
                             reported to US-CERT during FY 2009.

 8c. How often does the Agency follow documented policies and procedures for reporting to law enforcement?
     100 % to 100 %
             Comments:       One incident was reported to law enforcement during FY 2009.

Question 9: Security Awareness Training
Provide an assessment of whether the Agency has provided IT security awareness training to all users with log-in privileges, including
contractors. Also provide an assessment of whether the Agency has provided appropriate training to employees with significant IT
security responsibilities.

9a. Has the Agency developed and documented an adequate policy for identifying all general users, contractors, and system
owners/employees who have log-in privileges, and providing them with suitable IT security awareness training?
     Yes
9b. Report the following for your Agency:
     9b(1). Total number of people with log-in privileges to Agency systems.
             290
                     Comments:       Includes employees and contractors as of 9/16/2009.




2009 Annual FISMA Report - Farm Credit Administration          For Official Use Only                                          IG Report - Page 11 of 12
   APPENDIX A: INSPECTOR GENERAL SECTION REPORT for OMB
     9b(2). Number of people with log-in privileges to Agency systems that received information security awareness training during the
     past fiscal year, as described in NIST Special Publication 800-50, "Building an Information Technology Security Awareness and
     Training Program."
              290           (100 %)
                     Comments:        as of 11/6/2009

     9b(3). Total number of employees with significant information security responsibilities.
             29
     9b(4). Number of employees with significant security responsibilities that received specialized training, as described in NIST
     Special Publication 800-16, "Information Technology Security Training Requirements: A Role- and Performance-Based Model."

             29            (100 %)

Question 10: Peer-to-Peer File Sharing

10. Does the Agency explain policies regarding the use of peer-to-peer file sharing in IT security awareness training, ethics training,
or any other Agency-wide training?
     Yes




2009 Annual FISMA Report - Farm Credit Administration           For Official Use Only                                        IG Report - Page 12 of 12
 APPENDIX B: ACRONYMS AND ABBREVIATIONS


 AFMS          Agency Financial Management System
 Agency        Farm Credit Administration
 C&A           certification and accreditation
 CIO           Chief Information Officer
 CISSP         Certified Information Systems Security Professional
 CRS           Consolidated Reporting System
 EA            enterprise architecture
 eOPF          electronic Official Personnel Folder system
 FCA           Farm Credit Administration
 FCSBA         Farm Credit System Building Association
 FDCC          Federal Desktop Core Configuration
 FIPS          Federal Information Processing Standards Publications
 FISMA         Federal Information Security Management Act
 IG            Inspector General
 IRM           information resources management
 IT            information technology
 NIST          National Institute of Standards and Technology
 Notes         Lotus Notes
 OIG           Farm Credit Administration’s Office of Inspector General
 OMB           Office of Management & Budget
 OMS           Farm Credit Administration’s Office of Management Services
 PII           personally identifiable information
 POA&M         plan of action and milestones
 PPS           Personnel/Payroll System
 SP            Special Publication
 TT            Technology Team
 VPN           virtual private network




FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL
                  R E P O R T
           Fraud | Waste | Abuse | Mismanagement




                             FARM CREDIT ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL

               • Phone: Toll Free (800) 437-7322; (703) 883-4316
               • Fax:          (703) 883-4059
               • E-mail: fca-ig-hotline@rcn.com
               • Mail:         Farm Credit Administration
                               Office of Inspector General
                               1501 Farm Credit Drive
                               McLean, VA 22102-5090




FARM CREDIT ADMINISTRATION ♦ OFFICE OF INSPECTOR GENERAL
